<html>
<title> - THE NEXT GENERATION OF NUCLEAR POWER</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





                  THE NEXT GENERATION OF NUCLEAR POWER

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ENERGY AND RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 29, 2005

                               __________

                           Serial No. 109-67

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-408                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

                  Subcommittee on Energy and Resources

                 DARRELL E. ISSA, California, Chairman
LYNN A. WESTMORELAND, Georgia        DIANE E. WATSON, California
ILEANA ROS-LEHTINEN, Florida         BRIAN HIGGINS, New York
JOHN M. McHUGH, New York             TOM LANTOS, California
PATRICK T. McHENRY, North Carolina   DENNIS J. KUCINICH, Ohio
KENNY MARCHANT, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Lawrence J. Brady, Staff Director
                 Dave Solan, Professional Staff Member
                          Lori Gavaghan, Clerk
          Richard Butcher, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 29, 2005....................................     1
Statement of:
    Johnson, Robert Shane, Acting Director, Nuclear Energy, 
      Science and Technology, U.S. Department of Energy; David 
      Baldwin, senior vice president, General Atomics; Rowan 
      Rowntree, independent scientist, visiting scholar, 
      University of California-Berkeley; and David Lochbaum, 
      nuclear safety engineer, Union of Concerned Scientists.....    10
        Baldwin, David...........................................    19
        Johnson, Robert Shane....................................    10
        Lochbaum, David..........................................    45
        Rowntree, Rowan..........................................    30
Letters, statements, etc., submitted for the record by:
    Baldwin, David, senior vice president, General Atomics, 
      prepared statement of......................................    23
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Johnson, Robert Shane, Acting Director, Nuclear Energy, 
      Science and Technology, U.S. Department of Energy, prepared 
      statement of...............................................    14
    Lochbaum, David, nuclear safety engineer, Union of Concerned 
      Scientists, prepared statement of..........................    49
    Rowntree, Rowan, independent scientist, visiting scholar, 
      University of California-Berkeley, prepared statement of...    33
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................     7

 
                  THE NEXT GENERATION OF NUCLEAR POWER

                              ----------                              


                        WEDNESDAY, JUNE 29, 2005

                  House of Representatives,
              Subcommittee on Energy and Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2203, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, Watson, and Kucinich.
    Staff present: Larry Brady, staff director; Lori Gavaghan, 
legislative clerk; Dave Solan, Steve Cima, and Chase Huntley, 
professional staff members; Richard Butcher, minority 
professional staff member; and Cecelia Morton, minority office 
manager.
    Mr. Issa. Good afternoon. Jointly, Congresswoman Watson and 
I would like to apologize for the entire Congress and 
particularly our voting schedule. We were notified that we 
would be voting so we went over only to discover that they 
voiced it. So we should be uninterrupted going forward.
    I am very excited today that we are going to be talking 
about next generation nuclear power. Although, with the 
distinguished panel we have here today, hopefully we will even 
go beyond that and veer openly toward a lot of areas of the 
hydrogen society, fusion, and other areas of sustainable 
energy.
    As we all know, nuclear energy is the subject of renewed 
interest by the President, and Congress. Of course with it 
comes concerns over security of energy supplies, fossil fuel 
prices, the volatility of oil today, air quality, and our 
ability to reach our national goals of developing a hydrogen 
economy.
    At present, there are 103 licensed reactors still operating 
in 31 States. In 2004, nuclear generators produced a record 824 
billion kilowatt hours of electricity, accounting for 
approximately 20 percent of the Nation's electricity. 
Anecdotally, we have been at about 20 percent of the Nation's 
electricity coming from nuclear energy for a number of years. 
So these increases in reliability have kept pace with our need 
for power.
    For more than four decades, the U.S. nuclear industry has 
focused on improving existing reactor technology. America's 
nuclear power plants have an excellent safety record and are 
among the most efficient and reliable in the world. However, 
there are obvious limits to continued expansion of existing 
capacity. In the 21st century our Nation needs more safe, 
clean, reliable electricity. The Department of Energy is 
currently engaged in an effort to advance research and 
development of next generation nuclear systems capable of 
meeting this challenge.
    The Generation IV program seeks to develop a much more 
advanced generation of nuclear energy reactors to commercial 
development by 2030. These reactors will have a dramatic 
improvement in the areas of cost, safety, reliability and 
sustainability. The Department of Energy is supporting research 
in several reactor concepts, but priority has been placed on 
the Very High Temperature Reactor. This technology is the 
favored design in the United States due to its potential for 
competitive cost use in secondary industrial activities such as 
hydrogen production and desalinization. This reactor design 
could also burn uranium, plutonium and other waste products 
reprocessed from spent nuclear fuel or stockpiled warheads.
    In 2004, Secretary of Energy Spencer Abraham launched the 
Next Generation Nuclear Plant project to develop an advanced 
nuclear energy system to produce both inexpensive electric 
power and large quantities of cost-effective hydrogen that 
could be used as an alternative to fossil fuels. The Department 
of Energy has designated the Idaho National Laboratory to be 
the focal point for advanced reactor and fuel cycle 
development.
    The NGNP is a key component of America's energy future and 
the Federal Government must take a leadership role to ensure 
that a Generation IV reactor is built in the United States. The 
construction of a Generation IV reactor will ensure that the 
United States regains its position as a world leader in nuclear 
energy technology. Other nations are moving forward on 
Generation IV technologies, and if we do nothing, we will miss 
a unique opportunity.
    The purpose of this hearing is to evaluate the progress of 
the Department of Energy's Nuclear Generation IV program. We 
also want to get a better overall sense of the administration's 
commitment to move forward with the Next Generation Nuclear 
Plant project.
    We look forward to hearing from our distinguished panel.
    [The prepared statement of Hon. Darrell E. Issa follows:]

    [GRAPHIC] [TIFF OMITTED] T3408.001
    
    [GRAPHIC] [TIFF OMITTED] T3408.002
    
    Mr. Issa. Now I would like to recognize our distinguished 
ranking member, Ms. Watson.
    Ms. Watson. Mr. Chairman, thank you very much for convening 
today's hearing. As you have already said, this subcommittee is 
systematically investigating each of the major energy issues 
that our constituents are concerned about. Energy issues are of 
critical importance, particularly to southern California, as 
well as the rest of the Nation. So the subject for this 
hearing, ``The Next Generation of Nuclear Power,'' is very 
cogent and pertinent at this time.
    In the United States, the rising costs of electricity 
generation from natural gas and coal-fired power plants may 
make nuclear power and renewable energy sources relatively more 
competitive. No nuclear plants have been ordered in the United 
States since 1978. And more than 100 reactors have been 
canceled. Our aging Generation II power plants have been 
working at tremendous power generation levels, over 90 percent 
of capacity, to supply approximately 20 percent of the 
electricity needed for the Nation.
    The Federal Government would be wise to intensely research 
the next generations of nuclear power reactors and plan 
accordingly. It has been argued that expanded nuclear 
generation could help substitute for some of the demand for 
natural gas. A very significant aspect of reduced fossil fuel 
consumption is the reduction in carbon dioxide emission. 
Nuclear energy does not produce substantial air pollution. 
However, it could help reduce air pollution problems such as 
smog and particulate matter and particle matter and global 
warming.
    The United States is responsible for about one-fourth of 
the world's total greenhouse gas emissions. America must do 
better. Generation III Plus and Generation IV reactors may be 
the answer.
    On the other hand, current nuclear power generation has 
several downsides. Nuclear power produces large quantities of 
waste that remain highly radioactive for thousands of years. A 
permanent, environmentally sensitive repository for high level 
waste or a way to recycle nuclear waste is crucial to the 
future of nuclear feasibility.
    Moreover, the United States must commit the scientific 
manpower and monetary resources necessary to educate the public 
and provide the appropriate protection for the Nation's 
environmental and physical health. The Idaho National 
Laboratory, online since February 2005, is a commendable step 
in the right direction. The 3,400 employees of the INL have a 
core mission to develop advanced next generation nuclear 
technologies, promote nuclear technology education, and apply 
their technical skills to enhance the Nation's security.
    Another thought provoking issue regarding uranium and 
plutonium is domestic accidents and terrorist attacks. The 
potentially catastrophic nature of an accident at a nuclear 
power plant makes this a very serious concern. The last 
accident in the United States was at Three Mile Island, 
Pennsylvania, in 1979. The general feeling of improved safety 
and acceptable standards in current operations is commendable.
    However, in March 2002, leaking boric acid provided a large 
hole in the nuclear reactor vessel head at the Davis-Besse 
nuclear plant in Ohio. The corrosion stopped a quarter of an 
inch away from a potentially dangerous loss of reactor cooling 
water.
    The Nuclear Regulatory Commission must hold the nuclear 
industry to the highest standards in order to prevent problems. 
So Generation III Plus and Generation IV reactors must be safe 
for the public and not just in theory.
    Last, but not least, Mr. Chairman, I want to acknowledge 
the current world political atmosphere. America presents a 
prime terrorist target on a site that contains radioactive 
materials. Now, all commercial nuclear power plants licensed by 
the NRC have a series of physical barriers to accessing the 
nuclear reactor area, and are required to maintain a trained 
security force to protect them.
    Following the terrorist attacks of September 11th, the NRC 
began a review to improve defenses against terrorist attack. 
Several of the Generation IV reactor designs seemed to be prime 
candidates for energy production without weapons grade side 
effects. The over-arching issue of nuclear proliferation has 
been around for decades. The United Nations and other world 
organizations have been vigilant and aggressive in monitoring 
non-civil applications of nuclear energy. The United States 
must remain responsible and conscientious in this regard as 
well.
    Mr. Chairman, thank you for convening this hearing today. I 
look forward to hearing from all of our witnesses. Thank you.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T3408.003
    
    [GRAPHIC] [TIFF OMITTED] T3408.004
    
    [GRAPHIC] [TIFF OMITTED] T3408.005
    
    Mr. Issa. Thank you very much, Ms. Watson.
    The rules of the committee require that all witnesses and 
any person that is going to provide advice to witnesses be 
sworn in. So could I ask you to please rise for the oath.
    [Witnesses sworn.]
    Mr. Issa. Let the record show everyone answered in the 
affirmative.
    I would ask unanimous consent that all opening statements 
beyond the ones already given be in the record. Additionally, I 
would ask unanimous consent that all Members have 5 legislative 
days in which to revise or extend remarks or include extraneous 
material.
    Additionally, I would ask that all of your statements be 
placed into the record and any additional information you might 
choose to supplement with. And again, 5 days would be 
appreciated. If you need more time, let us know. But at this 
point, that will be entered in as an order.
    Having given you all those opening statements that were so 
carefully written, I will say this. Those are already in the 
record at this moment. We give a normal allotment of 10 
minutes, less if possible, to say what you want to say and then 
go into question and answer. Remember, you've already said 
everything that's in front of you.
    So feel free to give us additional information for the 
record. Because as you know, in spite of the large audience 
that is here today, the record is everything that's said and 
everything that's written. I know some of you will read your 
speech complete, but I would suggest that the more you give us, 
the better.
    With that, Mr. Johnson, you are first up. Thank you.

 STATEMENTS OF ROBERT SHANE JOHNSON, ACTING DIRECTOR, NUCLEAR 
  ENERGY, SCIENCE AND TECHNOLOGY, U.S. DEPARTMENT OF ENERGY; 
 DAVID BALDWIN, SENIOR VICE PRESIDENT, GENERAL ATOMICS; ROWAN 
 ROWNTREE, INDEPENDENT SCIENTIST; VISITING SCHOLAR, UNIVERSITY 
   OF CALIFORNIA-BERKELEY; AND DAVE LOCHBAUM, NUCLEAR SAFETY 
            ENGINEER, UNION OF CONCERNED SCIENTISTS

               STATEMENT OF ROBERT SHANE JOHNSON

    Mr. Johnson. Chairman Issa, Ranking Member Watson, I am 
Shane Johnson, Acting Director of the Department of Energy's 
Office of Nuclear Energy, Science and Technology. I would like 
to thank you for the opportunity to speak today on the 
Department's advanced reactor programs.
    I have submitted a statement for the record and I will 
briefly summarize that statement.
    The President's National Energy Policy recommends expanded 
use of nuclear energy to reduce dependence on imported fuels 
and reduce harmful air emissions. To help achieve this vision, 
the Department launched two new nuclear programs: our Nuclear 
Power 2010 program and our Generation IV Nuclear Energy Systems 
Initiative.
    The Department's Nuclear Power 2010 program is a 
partnership between industry and Government aimed at removing 
barriers to the licensing and the construction of new nuclear 
plants. The nuclear reactor technology being pursued in the 
Nuclear Power 2010 program, often referred to as Generation III 
or Generation III Plus reactors, represents an evolution in the 
basic reactor designs of the 103 designs in safe operation 
today in the United States. The evolutionary changes provided 
by Generation III reactors include the use of passive safety 
systems and simplifications in the design and layout of the 
various systems and components comprising the nuclear plan. We 
are hopeful that our country will see plant orders for new 
nuclear power plants in the next 2 to 3 years.
    The Department's Generation IV nuclear energy systems 
initiative is an international partnership aimed at the 
development of next generation reactor and fuel cycle 
technologies. These next generation technologies are expected 
to be revolutionary changes to the basic reactor designs in 
operation today. These Generation IV reactor systems are 
envisioned to offer significant advances in proliferation 
resistance, safety, sustainability, and reduced waste 
generation over today's reactor technologies. It is expected 
that these technologies could be available for possible 
commercialization some time between the years 2020 and 2030.
    These advanced systems are also expected to include energy 
conversation capabilities that could produce commodities such 
as hydrogen, desalinated water, and processed heat. In 2001, 
the Department led the formation of the Generation IV 
international forum, an international collective of 10 leading 
nuclear nations and the European Union working together to 
develop these advanced technologies.
    In 2003, following a 2-year U.S.-led international effort 
to develop a technology road map for Generation IV systems, the 
member countries of the Generation IV International forum 
selected six promising reactor concepts for future research and 
development. These six concepts represent the reactor concepts 
with the highest expectations for meeting the key objectives of 
the Generation IV program.
    To guide our Generation IV research activities and manage 
the technology development and intellectual property issues 
associated with international research collaboration, members 
of the Generation IV international forum signed a legally 
binding, intergovernmental framework agreement in February of 
this year. This agreement will further the development of 
advanced reactor technologies, enable the Department to access 
the world's best expertise, and allow the United States to 
carry out Generation IV research and development more 
efficiently and effectively by leveraging resources and 
capabilities.
    Additionally, the Department also established a new central 
laboratory in February, the Idaho National Laboratory, to lead 
the Government's research and development on reactor and fuel 
cycle technologies. The formation of the Idaho National 
Laboratory is a key step forward for the nuclear energy 
program, enabling the establishment of a dedicated research 
site at which we can build the expertise needed to develop 
these advanced technologies.
    Today, working through the Idaho National Laboratory with 
other national laboratories, universities, industry and the 
international research community, the United States is 
investing about $40 million annually on advanced research into 
systems, materials and fuels that are needed to bring 
Generation IV concepts to fruition. The Department is pursuing 
research and development on a range of Generation IV 
technologies, including the Gas-Cooled Fast Reactor, the Lead-
Cooled Fast Reactor, the Super-Critical Water Reactor, and the 
Very High Temperature Reactor.
    Our efforts on these technologies include the investigation 
of technical and economic challenges and risks, including waste 
products, developing core and fuel designs, and advanced 
materials for these reactors. The Gas-Cooled Fast Reactor is a 
fast neutron spectrum reactor that has the potential to use 
recycled fuel in order to maximize the value of our Nation's 
uranium resources. The Gas-Cooled Fast Reactor can also benefit 
future repository space requirements by burning long-lived 
spent fuel constituents.
    The Lead-Cooled Fast Reactor is a fast neutron spectrum 
reactor that operates similarly to the gas-cooled reactor. 
Instead of using helium gas as the coolant, the Lead-Cooled 
Fast Reactor uses a liquid lead-based coolant to remove reactor 
heat. The Lead-Cooled Reactor can operate at atmospheric 
pressure, simplifying the design of the primary reactor system. 
Like the Gas-Cooled Reactor, a key benefit of the Lead-Cooled 
Fast Reactor is to operate in a more fully closed fuel cycle. 
It is geared toward maximizing the utilization of uranium 
resources and minimizing nuclear waste.
    The Super-Critical Water Reactor is a highly efficient, 
water-cooled reactor that uses conventional, low-enriched 
uranium fuel and operates at high pressures and temperatures 
when compared to today's light-water reactors. This allows for 
a far more efficient plant, capable of generating electricity 
30 percent more efficient than today's light-water reactors. In 
addition, it represents a simpler design that reduces the 
number of systems and components that are required of 
Generation III reactors, resulting in improved economics.
    The Very High Temperature Reactor extends gas-cooled 
reactor technologies that operate today between 650 and 850 
degrees Celsius to operate at or near 950 degrees Celsius. The 
Very High Temperature Reactor is expected to produce 
electricity with 50 percent higher efficiency than light-water 
reactors today. The Very High Temperature Reactor is also 
expected to be capable of producing the heat necessary for 
efficiently producing hydrogen gas, using water as the only 
consumable resource. The Very High Temperature Reactor also 
incorporates passive safety characteristics, and has enhanced 
safeguard and security features.
    In addition to producing electricity, all four of these 
Generation IV concepts have the potential to provide hydrogen 
generation. While we are monitoring the progress of the 
international research community on the other two Generation IV 
concepts, namely the Sodium-Cooled Fast Reactor and the Molten-
Cooled Reactor, the United States is not presently investing to 
any large extent in the development of these technologies.
    The Department's Energy Information Administration 
estimates the United States will need an additional 355,000 
megawatts of electricity production capacity over the next two 
decades to meet our Nation's growing demand for electricity. 
Nuclear energy will be needed to help meet this demand. 
Generation III or Generation III Plus reactor technologies can 
meet near-term demand for new baseload electricity generation. 
We are seeing signs from industry that these technologies will 
be deployed in the United States in the very near future.
    The United States and many other countries agree that 
Generation IV reactor concepts must offer improved economics, 
proliferation resistance, safety and sustainability over 
today's reactor designs. In addition, these technologies need 
to be designed, developed and demonstrated before 2030, in 
order to support growing United States and global energy needs 
and also to help achieve our environmental objectives.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T3408.006
    
    [GRAPHIC] [TIFF OMITTED] T3408.007
    
    [GRAPHIC] [TIFF OMITTED] T3408.008
    
    [GRAPHIC] [TIFF OMITTED] T3408.009
    
    [GRAPHIC] [TIFF OMITTED] T3408.010
    
    Mr. Issa. Thank you very much, Mr. Johnson.
    With that, we move to Dr. David Baldwin. Dr. Baldwin 
received his Bachelor of Science and Ph.D. in plasma physics 
from MIT. From 1962 to 1970, he held research and faculty 
positions at Stanford University and Culham Laboratory in 
England and Yale University. In 1988, he was named Professor of 
Physics and Director of the Institute for Fusion Studies at the 
University of Texas, Austin. Since 1995, he has been a senior 
vice president of the Energy Group for General Atomics in San 
Diego. General Atomic's Energy Group's activities include high 
temperature gas reactor development for both electricity and 
hydrogen products together with necessary supporting 
technologies.
    Thank you very much for being here, and we look forward to 
your testimony, Dr. Baldwin.

                 STATEMENT OF DAVID E. BALDWIN

    Mr. Baldwin. Thank you, very much, Mr. Chairman and members 
of the committee. I won't introduce myself, you've done a very 
nice job, thank you.
    But I do want to thank you for the opportunity to talk to 
you about the Generation IV technology, the impact it could 
have and the role the Government could play. The previous 
speaker has just talked a lot about the Generation IV program, 
so I will save some time and not enter into that. But I want to 
focus in particular on what he called the Very High Temperature 
Gas Reactor. It goes by other names, High Temperature Gas 
Reactor or Modular-Helium Reactor, they are all essentially the 
same thing.
    Interestingly, this approach was inspired by a question 
from Congress in the early 1980's. We were basically asked, 
can't you make a reactor with all the virtues that are now 
called Generation IV virtues? In many ways, the resulting 
design was an answer to a maiden's prayer. It is the first 
reactor that was designed from the bottom up first to be safe, 
then to be economic, and then asked, what other applications 
might it have. Safety was the first consideration.
    One key to the safety is in the fuel. The reactor fuel is 
an engineered fuel particle which is, the fissile part, only 
about half a millimeter in diameter, wrapped in ceramic 
coatings, three layers of ceramic coatings, which protect the 
fuel under all conditions from both loss of fuel and loss of 
the radiation products in both normal and off-normal operation.
    In effect, the ceramic container is the containment vessel 
for the little, tiny particle of fuel and a fully fueled 
reactor would contain billions of these little particles.
    The second key to this reactor's attribute is the 
combination of the chemically inert and neutron inert coolant 
gas, which is helium, and the graphite matrix into which this 
fuel is embedded. The dimensions of the reactor is chosen so 
that under any conditions, loss of coolant or whatever, the 
core could cool by natural conduction and conduction. That is, 
it does not require any form of external or active cooling 
system.
    The heat capacity of the graphite is such that the peak 
temperature, in which there is some small temperature rise, 
takes 2 or 3 days to reach, so there is time to react to the 
situation. The graphite material is like diamond insofar as it 
is a form of carbon that does not burn in the sense of 
generating heat and excessive losses. If oxidation were to 
start, for example, if air flow replaced the helium gas flow, 
the result would actually be a slight cooling of the system.
    The resulting reactor has many attributes. Its physical 
characteristics of inherent safety of any kind mean that 
conditions like prompt criticality and melt-down are simply not 
possible. The entire nuclear envelope is below grade by design. 
This was done for economic reasons, but since September 11th, 
it is obviously important. The only thing above grade are 
things like cranes, which are not nuclear in their character.
    In operation, it burns 80 percent of its fuel load, 
compared to around 5 percent for the light-water reactor. This 
means much less high level waste for a given amount of 
electricity. And the resulting spent fuel is in a form ideal 
for geologic burial. The gas temperature, as has already been 
mentioned, in the range of 900 to 950 degrees, is perfect for 
applications like electricity production or thermo-chemical 
hydrogen production.
    And finally, looking at costs, once we have moved beyond 
the startup costs of first-time engineering, the costs of these 
reactors will compare very favorably, even with current 
Generation III reactors.
    But the point I want to make here today is that the reactor 
is also very flexible with regards to the kind of fuel burned 
in it. In fact, exactly the same reactor can be fueled by 
several means. The conventional way is low-enriched uranium, 
that is less than 20 percent. It will also burn a mix of 
thorium and enriched uranium. It can burn weapons grade 
plutonium for the destruction of the plutonium. Or it can burn 
light-water reactor spent fuel for that destruction.
    The combination of the graphite matrix and the coolant and 
the fuel form enables these fuels to be burned safety, without 
dilution in high burn-up, and then placed directly in geologic 
storage. A preliminary test at Oak Ridge indicates that this 
fuel will retain its integrity for a few million years, which 
exceeds the lifetime of the contents.
    The important part I want to leave with you is that this 
capability for burning light-water reactor fuel opens a very 
attractive alternative to today's once-through fuel cycles with 
subsequent geologic disposal. In fact, it presents a totally 
different way of thinking about spent fuel. Licensing Yucca 
Mountain is certainly controversial today, and this issue must 
be solved, as the Congresswoman said in her opening remarks.
    At the current rate of generation of spent fuel, an 
additional Yucca Mountain equivalent would be needed every 20 
years or so. And any increases would only make the situation 
worse.
    As an alternative, by first removing the low-level unburned 
uranium and short-lived decay products from spent fuel and then 
forming the remaining plutonium and actonides into TRISO 
particles, some 70 to 90 percent, it depends on the isotope, of 
this spent fuel waste can be burned in one pass through a Very 
High Temperature Reactor. Even more could be burned if you do a 
second pass.
    This process is known as deep burn. In steady state, one 
reactor could support five light-water reactors.
    The final discharge is most unsuitable for weapons usage, 
because 90 percent of the plutonium isotope used in nuclear 
weapons has been consumed and the volume and heat load have 
been much reduced.
    By burning the spent fuel from the light-water reactor 
fleet in dedicated high temperature reactors, and gradually 
changing over to those reactors as the light-water reactors 
reach their end of life, the United States would need only one 
Yucca Mountain or its equivalent to meet the spent fuel needs 
for the next 75 to 100 years, even with a 2 to 3 percent per 
year growth in nuclear power that some people see today. This 
would be enough time to develop fusion energy as an ultimate 
solution to the fuel problem. If fusion were unable to reach 
its promise in that timeframe, and personally I believe it 
will, then the limited number of Fast-Flux reactors could be 
employed to process the quite modest discharge from the High 
Temperature reactor fleet.
    So with all this promise, why do we not see utilities 
flocking to these reactors? There are several reasons. First, 
of course, nothing has been moving in the nuclear arena for 30 
years. At the end of the first nuclear era, GA had booked 
orders for 12 earlier versions of gas reactors that totaled 
over $11 billion. Those who say that the technology is not 
ready often forget this fact.
    Now that the tide may be changing, the first priority of 
utilities has been Nuclear Power 2010 to restart LWR 
construction. The utilities are also very aware of the spent 
fuel issue, as witnessed by the urging of the Yucca Mountain 
licensing. GA has several of them on its advisory board. We 
receive a lot of advice and encouragement from them.
    Finally, what is really needed for the utility commitment 
and interest in investment is a successful operating 
demonstration facility. Such a facility would play the same 
role today that the many reactors built in the 1950's and 
1960's played, as part of the nuclear navy program, played for 
the light-water reactor program, and there is no such 
equivalent today. The NGNP at Idaho has been under discussion 
for 2 years now. Its purpose is to provide just that 
demonstration function. It has received authorization support 
and some appropriation funding, but I think it is fair to say 
we as a Nation have not really yet committed to carrying that 
out. Needless to say, I strongly endorse that commitment.
    So far its mission has been couched in terms of electricity 
and hydrogen. But I would urge that a demonstration of deep 
burn be added to that mission. This could be done with no 
alteration to the facility itself, and only require fabrication 
of the appropriate fuel.
    In these comments, I have not touched on some other 
comments made in the written testimony which dealt with how the 
NGNP affected the revitalization of the nuclear industry. For 
purposes of time I can't cover them here. What I have covered, 
described as a quite different vision of the future nuclear 
power development of this country, particularly for addressing 
the important issue of spent fuel distribution. It is one I 
believe can meet the Nation's energy needs for the next several 
decades by addressing and resolving all of the issues that 
nuclear power has raised over the last decades.
    Providing this legacy for our children is a vision worthy 
of Government support, and I thank you for the opportunity to 
present it.
    [The prepared statement of Mr. Baldwin follows:]

    [GRAPHIC] [TIFF OMITTED] T3408.011
    
    [GRAPHIC] [TIFF OMITTED] T3408.012
    
    [GRAPHIC] [TIFF OMITTED] T3408.013
    
    [GRAPHIC] [TIFF OMITTED] T3408.014
    
    [GRAPHIC] [TIFF OMITTED] T3408.015
    
    [GRAPHIC] [TIFF OMITTED] T3408.016
    
    [GRAPHIC] [TIFF OMITTED] T3408.017
    
    Mr. Issa. Thank you, Dr. Baldwin.
    We now move to Dr. Rowan Rowntree, who has just concluded a 
3-year appointment as a visiting scholar in the Department of 
Environmental Science, Policy and Management at the University 
of California-Berkeley. He taught courses in energy, technology 
and society as an assistant and associate professor in the 
Maxwell School of Public Policy at Syracuse University.
    Three years ago, he retired from his position as National 
Research Program Leader in the research division of the U.S. 
Forest Service. His advanced degrees are in the earth sciences, 
and were taken at the University of California-Berkeley.
    Before I allow Dr. Rowntree to speak, I have to own up to 
25 years of, at times, having the opportunity to debate him 
about sustainable energy and other subjects, including the 
earth in every possible sense. So it is with great pleasure 
that he agreed to be here as the most independent scientist we 
could possibly get, and you will see that demonstrated here 
today. Please, Dr. Rowntree.

                  STATEMENT OF ROWAN ROWNTREE

    Mr. Rowntree. Thank you very much, Mr. Chairman and members 
of the subcommittee, for your invitation. This is an important 
discussion.
    I would like to address the second question in your 
briefing memorandum: How can Government further promote the 
Generation IV nuclear power technology? I suggest there are six 
things that Government can do. These suggestions address the 
public's aversion to nuclear power, and they also address the 
need to have energy policymaking and management become more 
transparent. Unless we can achieve this, support for Generation 
IV reactors will be difficult. So these suggestions really 
focus on the interim 25 years until the Generation IV reactors 
can come online.
    First, we have to educate the Nation as to why the 100 
orders for reactors were canceled, and why there have been no 
new orders for reactors since about 1978 or 1980. This is the 
first step in building public confidence that, with new and 
advanced technology, the Nation can safely consider continuing 
the nuclear component of our energy program.
    The second thing I suggest is that we educate the Nation as 
to how safe the current 103 reactors are, at what rate they 
will be decommissioned, and what type of reactors will replace 
them. To maintain the 20 percent nuclear contribution, we need 
to tell the Nation whether it is better to extend the life of 
the current fleet or replace a portion of that fleet with what 
I assume will be called Generation III Plus reactors. Correct 
me if I am wrong on the terminology.
    If it is the Government's intention to increase the nuclear 
contribution above 20 percent during the next 25 years, then we 
must explain what kinds of reactors and fuel cycles will be 
used and what the tradeoffs are between starting these reactors 
up versus just waiting for Generation IV reactors to come 
online.
    The third suggestion is, we must solve two problems of 
critical public safety: the disposal question and the posture 
of the Nuclear Regulatory Commission. On the first one, is it 
better to move high-level waste to Yucca Mountain or improve 
technology for onsite, above-ground or below-ground disposal? 
Or should we get back into reprocessing, and if we do, can we 
really manage the plutonium proliferation problem?
    On the second point, we must answer the question, is the 
Nuclear Regulatory Commission tilted toward public safety or 
toward industry solvency?
    My fourth suggestion is to provide the public with a plan 
and a time line that takes us through the interim 25 years and 
through the life span of Generation IV to fusion. Now, we read 
this morning in the New York Times that France is going to get 
the first fusion experimental reactor. We just need to have the 
public understand what our plan is. A plan in itself builds 
confidence, structures discussion, and invites good ideas.
    For example, the fusion education program at General 
Atomics, in partnership with DOE, begins at the elementary 
school level. Education programs like this, when placed in the 
context of a plan and a time line, take on added power and 
meaning.
    Fifth, make a concerted effort, that is a concerted effort, 
to reduce fossil fuel consumption by strengthening corporate 
average fuel efficiency standards and supporting citizens' 
conservation efforts. This builds public participation, builds 
citizen responsibility and public interest in energy decisions. 
It also builds a sense of credibility about what Government is 
doing.
    This approach can convince the public the Government really 
is making every effort to solve our energy dilemma. An example 
is Congressman Issa's efforts to make car pool lanes available 
to hybrid cars, which has been successful.
    My last suggestion, and in my mind today, the most 
important, is give careful consideration to renewables that can 
come online in the next 5 years, or 10 years, to reduce the 
large fossil fuel component, promote solar, and take a new look 
at wind. I have just become more interested in wind last week, 
and I will tell you why. Wind turbines currently contribute 
about 1 percent of our electricity. But they require low front-
end investment, low operational costs and they use established 
technology and have low environmental impacts.
    But in terms of forging a national generation strategy that 
included wind, we really had no hard data on the wind resource. 
Then in this coming month's issue of the Journal of Geophysical 
Research-Atmospheres, which is a publication of the American 
Geophysical Union, there will appear a comprehensive peer-
reviewed research report that establishes a calculus for wind. 
This study assesses the wind generation potential for all 
regions of the world. The author is a tenured professor of 
civil and environmental engineering at Stanford University and 
the study was funded by NASA. It is a solid study and the 
citation appears at the end of my testimony.
    The research that they did concludes that locations around 
the world with sustainable Class III winds can produce about 72 
terawatts of electricity. A terawatt is 1 trillion watts, the 
power equivalent, I am led to believe, that is equivalent to 
generation by more than about 500 nuclear reactors. The authors 
point out that capturing 20 percent of the 72 terawatts would 
meet the world's electricity needs, including a good portion 
for hydrogen production.
    The Great Lakes region in the United States is designated 
in this study as one with many offshore sites for this type of 
wind generation and the availability of fresh water at the site 
makes it attractive for hydrogen production. I am concluding 
today that with Government leadership and moderate subsidy we 
could attract capital to bring additional wind generation 
online quicker and possibly with fewer costs than by building 
Generation III and III Plus reactors.
    So to summarize, to successfully promote Generation IV 
reactors, this requires convincing thought leaders, investors 
and governments that, No. 1, Generation IV solves most of the 
problems of Generations I, II and III, and the testimony I have 
heard to this point convinces me that they are very attractive. 
Second, that the current reactor fleet be managed in a way that 
maximizes public safety.
    Third, that Government is looking at all options in a 
clear-eyed, cost beneficial manner. Four, that Government will 
educate the people about the costs and benefits of each option 
and then make intelligent decisions about how to get us out of 
this dilemma.
    Now, this subcommittee is taking the right step toward an 
open and honest discussion. I commend the chairman and the 
members. Thank you.
    [The prepared statement of Mr. Rowntree follows:]

    [GRAPHIC] [TIFF OMITTED] T3408.018
    
    [GRAPHIC] [TIFF OMITTED] T3408.019
    
    [GRAPHIC] [TIFF OMITTED] T3408.020
    
    [GRAPHIC] [TIFF OMITTED] T3408.021
    
    [GRAPHIC] [TIFF OMITTED] T3408.022
    
    [GRAPHIC] [TIFF OMITTED] T3408.023
    
    [GRAPHIC] [TIFF OMITTED] T3408.024
    
    [GRAPHIC] [TIFF OMITTED] T3408.025
    
    [GRAPHIC] [TIFF OMITTED] T3408.026
    
    [GRAPHIC] [TIFF OMITTED] T3408.027
    
    [GRAPHIC] [TIFF OMITTED] T3408.028
    
    [GRAPHIC] [TIFF OMITTED] T3408.029
    
    Mr. Issa. Thank you, Dr. Rowntree.
    We now move to Mr. David Lochbaum, nuclear safety engineer, 
Union of Concerned Scientists.
    Mr. Lochbaum received his bachelor of science in nuclear 
engineering from the University of Tennessee. He has more than 
17 years of experience in commercial nuclear power plant start-
up, testing, operations, licensing, software development, 
training, and design engineering. Since 1996, he has been a 
nuclear safety engineer for the Union of Concerned Scientists, 
UCS, not to be confused with USC. UCS is a non-profit 
partnership for scientists and other interested citizens, 
combining scientific analysis, policy development and citizen 
advocacy to achieve environmental solutions.
    Mr. Lochbaum has also been a member of the American Nuclear 
Society since 1978 and has written numerous articles on nuclear 
safety. We look forward to your testimony. Thank you.

                  STATEMENT OF DAVID LOCHBAUM

    Mr. Lochbaum. Thank you, Mr. Chairman. I appreciate this 
opportunity to share the vies of UCS with the subcommittee.
    The role of the Department of Energy, which has been a key 
part of today's hearing, is an important one if there is to be 
a future for Next Generation Nuclear Power in this country. To 
complement that important role is that of the Nuclear 
Regulatory Commission, which plays not as an immediate role, 
but is clearly a deeply important role if that next generation 
is to be successful.
    As the chairman pointed out in his opening remarks, there 
hasn't been a serious accident at a U.S. nuclear power plant 
since 1979, Three-Mile Island. There are several reasons for 
that. If you look at the chance of failure versus time for 
nuclear power plants, or cars or light bulbs or anything, it 
pretty much follows a bathtub curve, named for its shape. The 
highest risk is early in life, the break-in phase, and late in 
life, the wear-out phase.
    The experience with nuclear power in this country, is that 
we have a lot of accidents during the wear-in phase, Three Mile 
Island being the most serious of those accidents, but we also 
have Browns Ferry, SL-1, the Fermi 1 reactor accident and so 
on; accidents that all happened in the first year or two of its 
lifetime. Once we got out of that phase, past the break-in 
phase, where the chance of failure goes down, we are on in the 
peak middle health period of that curve, heading toward the 
wear-out phase of the curve.
    So the Nuclear Regulatory Commission in the future faces 
the two areas where the risk is the highest: from the existing 
reactors as they enter or they head toward the wear-out phase, 
or the risk of new reactors that by nature have to be put down 
in the left hand part of the curve, which is the break-in part 
of the curve where again the risk is higher. It doesn't 
guarantee failure, but the risk is higher in this portion of 
the curve.
    We are concerned that the Nuclear Regulatory Commission 
hasn't been reformed or its effectiveness hasn't reached a 
point where it can really deal with both of those challenges 
successfully. Dr. Rowntree commented that maybe the NRC has a 
bias toward industry. My personal belief is they don't really 
have a bias, they are asked to do an awful lot with limited 
resources. So we have too many balls up in the air, and the 
chances of dropping them are always greater. Our concern that 
the focus has been on the DOE's role, at the sake of the NRC's 
role, in making that agency effective in dealing with the 
challenges it will face in the future.
    Other evidence of the difficulty of meeting this challenge 
we think are not quite as bad as accidents, but are equally 
suggestive of the problem. Over its entire history, the Nuclear 
Regulatory Commission has licensed a total of 132 nuclear power 
reactors. Forty-four times one of the reactors has been shut 
down for a year or more because of its safety levels. Those 
were not accidents, but they were still break-downs, they cost 
the country billions of dollars as ratepayers and stockholders 
paid for those safety levels to be restored.
    An effective regulator would have seen signs of trouble 
sooner and intervened sooner and brought about changes that 
allowed problems to be fixed before it took a year for them to 
fix the problems. That resulted in lower safety levels and 
higher costs than were necessary.
    Over the last 20 years, there hasn't been a single moment, 
where a reactor in the United States hasn't been shut down 
fixing safety levels. We haven't had an accident in 25 years, 
but we still have these money drains that are costing billions 
of dollars. They are also precursors to more serious accidents 
if we don't correct the performance that leads to these 
problems.
    Other compelling evidence of the need for change at the NRC 
are surveys conducted by the NRC's own Inspector General. The 
most recent of those surveys was released in 2002. That survey 
reported that only slightly more than half the employees of the 
NRC feel that it is safe to speak up in the NRC. That is simply 
unacceptable. The agency that is in charge of safety cannot 
silence its own employees.
    There is a safety culture at the NRC that the agency is 
aware of and is taking steps to address. I think they are very 
sincere in trying to fix those problems. Our concern is that 
they don't have the resources to bring about those changes fast 
enough, while they are also dealing with the other issues that 
they face. These facts should be troubling regardless of 
whether somebody loves or hates nuclear power, whether you see 
nuclear power as having a role in the future or not. The fact 
is that nuclear power is here today and those problems that the 
Nuclear Regulatory Commission face need to be addressed to 
ensure safety of the existing reactors and provide a real solid 
foundation for the next generation.
    Mr. Johnson in his remarks spoke of the need to demonstrate 
the technologies for the Generation IV reactors. We heartily 
endorse that concept. The consequence of not doing full testing 
has been lower safety levels and higher costs.
    If you look at the existing fleet of reactors, we have had 
material surprises that have caused costs to be much higher 
than they need be. Right now, the industry, which is a fairly 
mature industry, is facing problems with alloy 600 materials, 
that were supposed to last for the life of the plants but are 
not. They are requiring steam generators and other complements 
to be replaced at a higher cost and also representing a greater 
risk until they are replaced. Better testing years ago before 
these reactors were built and tested would have identified 
these problems and allowed the materials being used today to 
begin producing at a sooner time. Both safety and economics 
would benefit.
    Another example is a material called ENON, which is a 
material used as a fire protection barrier, so that a fire does 
not destroy the cables in the emergency equipment in the back-
ups. What we are finding out through the testing done at Sandia 
earlier this year is that this material does not last, does not 
perform, and does not function. The fire burns it up.
    For some reason, the safety tests were not done until years 
after the material was deployed in a large number of our U.S. 
reactors. This is not good from either a safety or economic 
standpoint. Testing is a way to ensure that the expectations 
that were set up for the future in terms of safety and 
economics are demonstrated rather than just proven in 
cyberspace.
    I would also like to address a point that Dr. Baldwin made, 
safety of the reactors. We hear a lot of talk about the 
improved safety and have no reason to doubt the sincerity of 
this plan. At the same time, we see the nuclear industry asking 
that Price Anderson liability protection be extended to nuclear 
reactors. If you look at the efforts that have been underway 
for many of the reactor designs, the attempt is to reduce the 
likelihood that the design has an accident, which is a 
commendable goal. But the second part of that, should an 
accident occur in spite of all these nice efforts to reduce the 
likelihood, will the public be protected? Will the containment 
protect the public from release of radioactivity?
    With Price Anderson in place, the second part of that 
equation isn't as important, because you pay the same insurance 
rates whether you have a good containment, no containment or 
bad containment. If you disallowed, and didn't renew Price 
Anderson on nuclear reactors, it would be an incentive for 
vendors to come up with safe designs. Because those safe 
designs would translate into lower insurance premiums over the 
life of the plant. Whereas right now, there is no safety 
incentive to come up with that great design that protects the 
public.
    Similar to cruise ships, the operators of cruise ships go 
to great lengths to avoid wrecking those cruise ships. But 
should something happen, there are also lifeboats and other 
things to protect the passengers in the unlikely event that a 
cruise ship accident occurs.
    With Price Anderson, there is not the incentive to provide 
lifeboats and other things that nuclear power plants can have 
to protect the public. We are concerned that if Price Anderson 
is continued, there is a huge disincentive to make safety 
improvements. We should not provide barriers to safety in the 
future.
    Last, on the issue of the fuel cycles, we at UCS have long 
been concerned about nuclear safety. We have also been 
concerned about nuclear proliferation. One of our concerns with 
many of the nuclear designs is the separation of plutonium does 
increase the likelihood and potential for proliferation of the 
technology, making it easier for rogue countries and terrorist 
groups to get their hands on the material necessary to make a 
nuclear weapon. So we have a concern about proliferation in the 
processing. These are not necessarily showstoppers, but we are 
concerned about how that is being done, what are the 
protections necessary to ensure that the right material does 
not fall into the wrong hands.
    I appreciate the opportunity to share our views, and I 
would be glad to answer any questions.
    [The prepared statement of Mr. Lochbaum follows:]

    [GRAPHIC] [TIFF OMITTED] T3408.030
    
    [GRAPHIC] [TIFF OMITTED] T3408.031
    
    [GRAPHIC] [TIFF OMITTED] T3408.032
    
    [GRAPHIC] [TIFF OMITTED] T3408.033
    
    [GRAPHIC] [TIFF OMITTED] T3408.034
    
    Mr. Issa. Thank you very much. I want to thank all of the 
witnesses for going well beyond their prepared statements. That 
does us a lot of good and certainly makes the record more 
complete.
    It is my custom to yield first to the ranking member. I am 
going to break with that tradition ever so slightly, because I 
saw Dr. Baldwin's head moving very much in agreement on the 
discussion of Price Anderson. I would like him to have an 
opportunity to speak on that, and then will certainly yield to 
the ranking member.
    Mr. Baldwin. I was certainly agreeing with the point that 
the disincentive for safety, the point we are making, provided 
by Price Anderson is important. We would agree that over a 
period of time these should be phased down. I think the first 
demonstration probably has to be covered. It is going to be in 
a Government installation anyway.
    But the point is the one I was agreeing with, if we move 
into systems which are inherently safe, you don't need the 
protection that provides.
    Mr. Issa. Excellent. That helps clarify the issue for all 
of us. With that, I would recognize the gentlelady from 
California for her questions.
    Ms. Watson. Thank you, Mr. Chairman, for allowing me to 
raise some of the issues as I listened to the panel. Let me 
direct my first question to Dr. Rowntree. I would like you to 
talk very shortly about fossil fuel consumption and what are 
the most critical environmental impacts of nuclear waste. I am 
concerned about global change and weather change, global 
warming and so on. Would you kind of tie in what impact the 
nuclear waste might have on that effect?
    Mr. Rowntree. May I ask for clarification? You asked about 
fossil fuel burning and climate change?
    Ms. Watson. Yes.
    Mr. Rowntree. And also about nuclear?
    Ms. Watson. Yes.
    Mr. Rowntree. My problem is, you asked for a brief 
discussion--[laughter]--with all due respect, you have two 
professors here.
    Ms. Watson. Why don't I talk about the origin of the 
galaxy? [Laughter.]
    Let's just confine it then to the nuclear, fossil fuel 
versus nuclear power, and its impact on the environment.
    Mr. Rowntree. Thank you. I left my cottage in Maine on a 
lake this morning where the loons are being infected by 
mercury. The mercury comes to us from the fossil fuel plants of 
the Midwest and the East. These loons are amazing birds. They 
came to their present morphology about 60 million years ago, 
about the time that dinosaurs were saying goodbye.
    But I am afraid if we continue with fossil fuel use, we 
will not only be putting carbon dioxide and some methane into 
the atmosphere, which if you took high school physics, you 
would learn that when you change the chemical constituents of 
the atmosphere through which radiation penetrates, you are 
going to change the radiation balance. So I prefer not to talk 
not about global warming as much as about climate change, 
because the increased incidence of extreme events and things 
like that.
    My taxi driver in from Dulles was from Bangladesh. If we 
drive our SUVs, we have to think about sea level rise and 
storms that flood those people out. If we are going to be 
citizens of the world, leaders of the world, this is part of 
our metric.
    At the same time, the people who live in Maine around me, 
and I, were very, very happy to see the Maine Yankee nuclear 
power plant closed down. Maine Yankee was an old plant. It 
broke, it was too expensive to fix, it was then decommissioned 
at great cost. But we are happy to say goodbye to that.
    So you see the dilemma. Current fission is, I couldn't say 
it better than Dave Lochbaum did about that curve, where we are 
now moving into a very precarious phase of nuclear fission. If 
I were king, I would bring Generation IV online, I would bring 
wind online, I would bring anything but the current, now 
outmoded, but certain used-car level of reactors, take them out 
of production and somehow get another system in place.
    In terms of nuclear waste, I think you mentioned nuclear 
waste, I have a question about, as I said, whether you are 
going to store it onsite, all around the country, at 103 
places, or if you are going to combine it in Yucca Mountain. I 
don't know the answer to that, but I am presuming that a lot of 
good and smart people put a lot of effort into deciding on, and 
then designing, Yucca Mountain. If we can overcome the 
transportation problem, which is no small problem, maybe we 
should subsidize the railroads so that they could be safer and 
have fewer derailments, and get that stuff to Yucca Mountain.
    I am not the person to say which is the better way to go, 
but I think we have run down this road with Yucca Mountain, we 
ought to complete that task. I understand it has about 63,000 
metric tons technical capacity, with the increase that Dr. 
Baldwin mentioned, how we are going to reduce that as we go to 
Generation IV.
    But nuclear waste is obviously a big, big problem right 
now.
    Ms. Watson. As you know, with us, you always have the 
political overlay. We have discussed time and time again 
whether we ought to bury it in one location or leave it where 
it is and seal it. Of course, transporting it to Yucca, I think 
it goes across 34 different States. You are going to have a 
response from each one of those States.
    See we have some serious problems. What I am probably 
really getting to, I think for the future, it looks like any 
kind of nuclear energy would be much better than the waste that 
we have to deal with at the current time. This is all in your 
province, in your domain, those of you sitting across the 
table. Dr. Baldwin, I see Dr. Rowntree pointing to you. Dr. 
Baldwin, you might want to respond.
    We are just really having some difficult problems, both 
scientifically, geographically, geologically, and politically 
in trying to do away with the waste that we have now. I just 
want to know what you see. Maybe you would comment on this for 
the future.
    Mr. Baldwin. I certainly don't have an answer to the 
political problem.
    Ms. Watson. Tell us what you know.
    Mr. Baldwin. I understand. What we have tried to address is 
how to not have the problem we have today escalate several 
times over, which it could well do. To hold this in bounds, it 
came out in the earlier remarks, I have been in the fusion 
program most of my professional life. I believe that some day 
there will be the answer. I don't believe it will be in the 
very near future.
    It will be on the order of 75 years before nuclear fusion 
power could have an impact on the energy economy. We may have 
demonstrations much earlier than that, I am not arguing that. 
But to really have an impact in the several tens of percent 
level, it is going to take a long time. So we need a bridge to 
that point. I very much believe that fission and fusion have to 
be looked at in combination, that the right kind of nuclear 
power, I believe Generation IV provides that, provides a bridge 
to fusion. Fusion is the ultimate solution to the spent fuel 
problem. But we have to look at it in the whole, we have to 
make use of other sources of energy, I agree with Dr. Rowntree 
very much, wherever they make sense.
    But we have to stop looking at this energy problem through 
little straws. We look at it a piece at a time. We have to 
think much more strategically, over the time scale of the order 
of a century. That is not a political answer, I know, because 
political answers are short-term.
    Ms. Watson. Then that kind of is a nexus to a question I 
have for Mr. Johnson. That is that scientists are saying that 
Generation IV designs will be more effective in production and 
waste management. Where are these plants to be constructed and 
where would they be tested? What kind of input would you have 
on that?
    Mr. Johnson. Thank you. One of the cornerstones of the 
Generation IV program is enhancements in safety, proliferation 
resistance and a reduction in the amount of waste generated 
from the operation of these facilities. But let me say that the 
Generation IV program is really in its infancy in terms of 
research and development on some of the more critical issues 
associated with fuel, associated with the materials necessary 
for the design of these facilities.
    So not to belabor the point, but it is a bit early to be 
saying where we would expect these to be deployed for 
commercial operation. We do see that the technologies do have 
the potential for commercialization out into the future. One 
could expect that they would be deployed in a manner not unlike 
the commercial plants in operation today, that they would be 
deployed in localities where the generation, the electrical 
capacity is needed.
    Ms. Watson. This is a very sensitive comment on my part, 
because a couple of years ago, we were in Kwajalein. As you 
know, after we did the testing, nuclear testing, I think it was 
1947, the Government set up a situation where the people in the 
surrounding islands could come together in, I guess it was 
called, it was a gathering where they would look at the results 
of their nuclear testing in subsequent generations. I think 
there was $150 million that was allocated for the people of the 
islands to come in and file for compensation as they are 
witnessing, generation after generation, the effects of the 
nuclear fallout.
    When we flew over the various islands, we looked down and 
we could see this clear water and the beautiful white sands and 
the palm trees. We wondered why we were testing that area so 
close to land. We do know there was a shift in the winds at the 
time, and it did carry the fallout over. But location, and how 
we are going to evaluate that these particular processes will 
be effective and will work, that came to my mind, the situation 
at Kwajalein came to my mind because of the effect it has had 
on the land and the people. The 14 inches of topsoil was 
completely destroyed, they call it hot soil. So they can't grow 
anything on those islands, it completely destroyed islands, 
some of them disappeared under water.
    So I think to test and to evaluate is a very crucial 
consideration that we must have, and I do hope that the 
thinking is going in where you would test and among whom you 
would test and all the matters and concerns that we might have 
affecting the populations in that area. So that's why I bring 
it up. I know that you are new, but I would like you to think 
about it.
    With that, I will turn it back to you, Mr. Chairman.
    Mr. Issa. Thank you, Ms. Watson.
    I am going to start where the Congresswoman finished off. I 
think it's fair to ask the question, we have done, the Chinese 
have done, the Russians, the Soviets, and other countries have 
done above-ground nuclear testing in which they have taken 
relatively significant amounts of enriched fuels and created an 
above-ground event of X magnitude with the accompanying fallout 
radiation, and so on.
    It has always been a question, and I couldn't be luckier 
than to have this kind of a gathering of brain trust, when we 
look at the unknown, what if we had another Three Mile Island 
in which nobody died, but it was somehow different, or a 
Chernobyl in which we had a nuclear power plant that was 
nowhere close to the safety standards that the United States 
would accept, and people did die? What would be those releases, 
worst case, from a present generation facility here in the 
United States or around the world, relative to what we did to 
ourselves and the world with above-ground nuclear testing for 
more than a decade?
    Mr. Baldwin. I'll try to respond. There are several things 
to say here that have occurred to me in the last couple of 
comments. One, the word test means something different and is 
being used very differently. In the weapons test we were trying 
to design something that would blow up and do damage, and in 
fact it did.
    Mr. Issa. A lot of fallout, lot of heat, lot of radiation.
    Mr. Baldwin. Lots of fallout and so on. What Mr. Johnson is 
talking about is testing reactors. The test is supposed to, 
things happen differently, I agree. What you are worried about 
is, what happens if those tests fail and there is release. It 
is a quantitative question. First of all, for the individual 
design, you have to look at what is the credible kind of 
release. It is not literally just taking everything there and 
supposing it is thrown up into the air. You have to have some 
kind of idea of the mechanism, of how it would work.
    That is a little bit what I was trying to address in saying 
that these high temperature gas cooled reactors are designing 
machines which literally cannot melt down. That is a very 
important difference.
    But the quantitative question as you posed it is, how much 
would a failed test, that is, some kind of release, 
quantitatively compare to what we already did to ourselves. I 
can't answer that question at this point.
    Mr. Issa. I will take a liberty and say that I personally 
believe and would hope that we can quantify it going down the 
road, that we already know the worst case. Chernobyl is a worst 
case. The above-ground nuclear testing was certainly worst 
case, and the world did not turn upside down. Kwajalein, where 
there was a series of above-ground explosions, designed to see 
how much damage could be done, certainly is a worst case.
    The strange thing that I find is that current generation 
nuclear reactors are virtually impossible to have happen what 
happened in Chernobyl, but even if it happened, and now I will 
pose the other question, what are we doing to the loons? What 
are we doing to our environment as we burn high volumes of 
fossil fuels, particularly current coal--not just here, but in 
Vietnam where they burn it just by taking high sulfur coal and 
just burning it? They make bricks there by throwing coal into a 
furnace and the black smoke puffs out.
    What is the current damage versus, even if the worst case 
happened again, what is the trade-off? I would pose to each of 
you, aren't we better off even if the worst case happens, 
compared to what is happening every day out of the smokestacks 
around the world of high volumes of fossil fuels damaging our 
ecosystem?
    Dr. Rowntree, we promised this was going to be 
controversial, didn't we?
    Mr. Rowntree. I think you put it very well. I will comment 
on perhaps my perception embedded in public perception of the 
tradeoff. Fossil fuel impacts on the one hand, fossil fuels in 
relation to nuclear are incremental, they are slow. Sea level 
rises very slowly, mercury up the food chain very slowly.
    On the other hand, nuclear: we have this impression that it 
will be a Chernobyl, an event. This is probably mistaken in the 
terms of the kind of question that you are asking.
    [Inaudible.]
    Mr. Issa. I was hoping for less bad. [Laughter.]
    Mr. Rowntree. I'm a technology person. I would oppose any 
quick fixes.
    Mr. Issa. I appreciate that. Dr. Baldwin.
    Mr. Baldwin. I would like to make a comment. I thought this 
was where Dr. Rowntree was going, and it is a very important 
point, and it may lay behind your question. It has to do almost 
with human nature, psychology, what he called the fast event. 
Human nature is more concerned about a small number of deaths 
in a fast event than a large number of deaths over a very long 
period of time. I think that is where he was going.
    We don't have answers to those questions. They are 
political, psychological and so on. But they are a little bit 
what we are wrestling with, that there is a certainty that we 
are doing damage to ourselves, to our people, to our 
environment following our present path.
    We have a risk of following other paths that something 
might happen. We are trying very hard to minimize that risk, 
but they manifest in human psychology very, very differently.
    Mr. Issa. I appreciate that.
    Moving to a subject closer to the administration, Mr. 
Johnson, in this year's budget, well, first of all, the 
President has been a champion for the hydrogen economy. Would 
that be fair to say?
    Mr. Johnson. Yes.
    As you heard here in testimony, and I think as we all know, 
there are two major ways to get hydrogen. One is to have 
another energy source, such as electricity, an abundance of 
electricity. Perhaps there is some way to get there besides 
nuclear. But for the most part, the vast majority uses the 
fossil fuel.
    The other one, which is more efficient, is what we do when 
we crack petroleum, we tend to use natural gas, which fairly 
easily gives us hydrogen, but of course we are talking about a 
fuel that is primarily best for medicine, plastics, fertilizer, 
but it could be turned for one of the lowest costs into 
hydrogen. And that is what they do usually at oil refineries.
    But from all that we have heard here today, the easiest, or 
let's say, the most efficient and least expensive way to get 
vast quantities of hydrogen will be Generation IV and beyond 
reactors, which have shown a tremendous ability to produce that 
hydrogen. I have to ask you, isn't there an inconsistency, in 
that the administration has offered zero for Next Generation in 
its budget?
    How do we deal with that here in the Congress? The Senate 
has already put $40 million into Next Generation. In 
conference, I expect that most or all of that will be there. 
How do we see that mixed message, or is it a mixed message?
    Mr. Johnson. Mr. Chairman, I would answer that saying, it 
may have the appearance of a mixed message, but it is not a 
mixed message. The administration's budget has seen over the 
last 5 years shows a steady increase in the funding request for 
our Generation IV nuclear energy systems initiative. It has 
also seen increases in funding requests for our hydrogen 
program.
    The hydrogen program is being managed out of the Office of 
Energy Efficiency and Renewables. The Office of Nuclear Energy 
has a role in the program as well. It is actually operated as a 
very well-integrated program. We are working in the Office of 
Nuclear Energy consistent with the Department's hydrogen 
posture plan, and our funding requests and our activities, 
research activities, that we are conducting as part of our 
nuclear hydrogen program are consistent with the funding 
requests in the posture plan, consistent with the activities 
that we have committed to.
    With respect to the Generation IV, again, over the last 5 
years we have seen our funding for the Generation IV program 
increase by a factor of 10. I believe it was in 2002, funding 
for the program was about $4 million. Our funding request is 
part of the 2006 budget, I believe it was $45 million.
    What you are possibly seeing as a lack of commitment on the 
part of the administration to moving forward with Generation IV 
is perhaps due to the absence of specific text in our budget 
request on the Next Generation Nuclear Plan. Based on 
conversations that we had with industry resulting from a 
request for expressions of interest that the Department issued 
late last spring, and also based on the results of an 
independent technology review that was conducted last year. 
Then upon further refinement of our R&D plans, as we were 
developing our fiscal year 2006 Congressional budget request, 
it was decided that we needed to increase our focus on the core 
research and development activities necessary to see these 
Generation IV technologies, whether the Very High Temperature 
Reactor or the Lead-Fast or the others, to address the critical 
issues associated with those particular reactor designs.
    So what you see in the 2006 budget request reflects the 
fact that we have seen that there are several critical issues 
that need further development before committing to go forward 
with any kind of procurement action for design and construction 
services. So while our 2006 request lacks the words Next 
Generation Nuclear Plan, it does include funding for all the 
concepts, including the Very High Temperature Reactor, which 
could be coupled to a hydrogen production capability.
    Mr. Issa. OK. In the future, I will try to look in multiple 
line items in groups, and perhaps that is the best way to look 
at it. Thank you for clarifying that.
    Dr. Baldwin, your CEO, I happen to know, is a pilot. I am 
also in a very, very limited way alleged to be a long-time 
holder of a pilot's license. Whether it is airplane design or 
it is automobile design, this bathtub safety curve that Mr. 
Lochbaum talked about clearly exists. But isn't it true, or 
isn't it fair to say that just when you went from the Wright 
Brothers planes to the aircraft of today, and you go from Henry 
Ford's cars to the automobiles of today, that it really is a 
series of those dips, but each one being at a lower level?
    The worst that could happen with the newest car of the 
lowest, if you will, worst possible design today, isn't it a 
lot better than a car of just 20 or 30 years ago at its best? 
Aren't we in a sense, going to Generation IV, going to be going 
to dramatically safer products?
    Mr. Baldwin. That is just what I was trying to say, is that 
we are talking about different kinds of curves. That is also a 
learning curve, which is just what you are saying.
    To assess the credible accident, you asked what is the 
worst possible case, you have to ask what could happen. That 
has to be assessed. So these more advanced designs have done a 
better and better job of eliminating the most destructive, of 
which Chernobyl was the worst example we know.
    Another comment I will make, which is very much related to 
this, and it occurred to me during Mr. Lochbaum's talking about 
the NRC. In the early history of the light-water reactor 
development, the basic concept was laid down by the nuclear 
navy, as we know. There were a number of smaller demonstration 
reactors built.
    But then it was basically turned over to industry. Industry 
did two things. It went off in different directions, there were 
multiple, different approaches to power. In a sense, every 
plant was designed as a boutique item, a specialty item.
    Mr. Issa. I understand that is in the United States. In 
France, they were organized.
    Mr. Baldwin. Yes, exactly. I am speaking of the United 
States. The second is, they scaled up very fast in size. So 
they scaled up, which increased the need for active systems and 
so on.
    So the burden on NRC, I am not defending NRC or anything, I 
am trying to explain. The burden on NRC was complicated by the 
fact that there were many different types of designs, and that 
they had been increased in the size of plants for economic 
reasons, driven by the utility or commercial interests. Other 
countries did it differently, you are absolutely right, have 
different records, standardization earlier on. I believe if we 
had done that in this country, it would have been much more 
within the NRC's ability to handle it.
    Mr. Lochbaum may want to comment.
    Mr. Issa. Actually, I am going to make it even one better. 
Ms. Watson would like to have another round of questioning. So 
perhaps you can combine those.
    Ms. Watson. I would like to direct my comments to Mr. 
Lochbaum, a concerned scientist. We have concerns in common. 
Then any of you can chime in.
    But how do you think the NRC could be reformed in order to 
ensure that it effectively regulates the reactors and can 
promote the safety of the Generation IV reactors? Then how can 
these Generation IV designs be more efficient in production and 
waste management? Why should they be reevaluated and 
reconsidered? Maybe you could throw all that in together. 
Anyone who wants to respond, please just jump in.
    Mr. Lochbaum. [inaudible.]
    Ms. Watson. Let me just raise this with the Chair. We have 
an oversight responsibility and I don't know how far we can 
follow this, Mr. Chairman. But I think our subcommittee, as 
long as you are the Chair, and he has prerogative, I would some 
way, Mr. Johnson, like to see those reports come in and we can 
kind of set a schedule for taking a look, not all of the 
detailed policy issues. But what are we doing to satisfy the 
public's concern? What are we doing in terms of safety 
measures? How are we addressing our environmental waste and so 
on?
    So I would like to see an ongoing kind of oversight 
function on the new generation advancements and technologies 
and so on. If we can do that, I think we will really serve the 
interests of the general public. How do we sell nuclear powered 
energy to the public in general? When you say atomic or 
nuclear, it all of a sudden puts blinders up to so many people. 
I think the more we can, as Congress and as a subcommittee, get 
the word out to people that advancements are being made with 
protections and in terms of the fallout, in terms of the 
processing and so on, I think we would see a more massive 
acceptance of this type of energy, which we dearly need.
    Mr. Issa. And if I can suggest, with Mr. Johnson's 
cooperation, majority and minority staff would prepare a list 
of those areas in which there may already be briefings or 
materials. But if there wasn't, perhaps you could put something 
together. We will get it to you within a week or so. We are 
leaving for the 4th of July break. So I would say just after 
that.
    Then if you could respond either with existing programs or 
literature, it would be very helpful and it would save us 
holding you for a long time with those questions. Based on that 
response, Ms. Watson and I would work together on seeing what 
we would like to have continue and then submit that back to 
you, if that is acceptable?
    Mr. Johnson. Yes, sir, that sounds very good.
    Mr. Issa. Excellent. Dr. Baldwin.
    Mr. Baldwin. We in thinking about our candidate for NGNP 
are constantly reviewing and concerned with the safety 
questions as they come up. One vehicle that we have found, we 
have not done this in the safety, but I would like to, that is 
why I am suggesting it, we have done it in other areas, is 
bring in advisory groups from interest groups. I mentioned that 
we had utility advisory board of some 10 or so utilities who 
over the years have steered us and advised us on our thinking 
and from their perspective.
    I am suggesting that if the NGNP really becomes a project, 
a viable project, that it would valuably have an advisory board 
made up of organizations like the Concerned Scientists, physics 
groups, utility representatives and so on, to advise how does 
this emerging Generation IV technology fit against the 
standards which the various stakeholders would bring to this 
technology.
    Mr. Issa. Dr. Baldwin, I think that is an excellent 
suggestion.
    Mr. Baldwin. Rather than trying to develop it in isolation 
then deal with it in hearings.
    Mr. Issa. I will take the liberty of suggesting that to the 
Senator from Idaho when we work together to renew the funding 
that I personally, not in indifference to the administration, 
but personally believe needs to be in the budget to move the 
demonstration project a little further, a little faster, if it 
becomes possible.
    Ms. Johnson, as you know, we often authorize and/or 
appropriate funds and then at the end of the year it goes back 
into the President's discretionary slush fund of leftover 
money. So it is not all bad if we give you the money and for 
some reason we are mistaken and it can't be used. I know you 
hate the word slush fund. But the truth is that there are many 
of us here who believe that we need to make sure that 
demonstration funds are available for fiscal year 2006, should 
opportunities occur to move that program.
    Ms. Watson, do you have additional questions?
    Ms. Watson. I just want to say, I thank you, all of the 
panel for coming and really educating us. As I have asked the 
chairman, I do hope that we will stay on top of this as it 
starts to develop, Mr. Johnson, and whichever way that we can 
be helpful in getting the word out, not only through those of 
us on the committee, but throughout Congress as to the 
development. Because these are issues that we are going to be 
faced with from now on. Energy and the environment, its impact 
on the environment, our ecosystem and so on, we need to plan 
for it, and we need to save this planet, Dr. Rowntree. Let's 
get the galaxy. [Laughter.]
    So I thank you for coming and sharing with us. I will hope 
that we as a committee can stay on top of the information. 
Thank you very much.
    Mr. Issa. Thank you, Ms. Watson.
    And I would like to thank the majority and minority staff 
who, as Ms. Watson and I know, made this all possible. I would 
like to thank our witnesses.
    I will mention that we did have Mr. Kucinich come in and 
out, we actually had several calls from other Members. Every 
single subcommittee and the full Committee of Government Reform 
are meeting here today. We are a busy group, regardless of what 
the newspapers say about us. Because of the volume of 
information, the additional requests, and to be honest, our 
hope that the record be complete, we will hold the record open 
for 2 weeks from this date for additional submissions and 
inclusions.
    Again, I would like to thank the witnesses for being here. 
With that, we conclude this hearing.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3408.035

[GRAPHIC] [TIFF OMITTED] T3408.036

[GRAPHIC] [TIFF OMITTED] T3408.037

[GRAPHIC] [TIFF OMITTED] T3408.038

[GRAPHIC] [TIFF OMITTED] T3408.039

[GRAPHIC] [TIFF OMITTED] T3408.040

[GRAPHIC] [TIFF OMITTED] T3408.041

                                 <all>

</pre></body></html>
